Audit Report



Return
    to the USDOJ/OIG Home Page




Strategic Information Technology Center Project Grant Awarded to the University of Arkansas Criminal Justice Institute National Center for Rural Law EnforcementLittle Rock, Arkansas

Report No. GR-80-04-005


January 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Strategic Information Technology Center grant awarded by the U.S. Department of Justice, Office of Justice Programs, Bureau of Justice Assistance (BJA), to the Criminal Justice Institute, National Center for Rural Law Enforcement (Institute), located in Little Rock, Arkansas.  The purpose of the initial award was to create and establish the Strategic Information Technology Center (Center).  The Center contains two primary tracks:

Rural Law Enforcement Technical Assistance Enhancement Project, designed to provide rural law enforcement agencies with access to electronic resources, databases, and the Internet; and 


Project PATHFINDER, designed to create a strategic information technology plan to meet the nationally recognized lack of easy, guided access to centralized and categorized information, education, and technical assistance to all units of government.

After the initial award, the Institute received three supplemental awards, and as the work evolved the project became known as the Bureau of Justice Assistance Internet Project.
As of September 15, 2003, the Institute was awarded a total of $6,700,000 to expand the technological and professional capabilities of rural law enforcement agencies throughout the United States by providing the following:

An Internet access point, allowing free Internet and email access.


An information clearinghouse and resource center offering free access to informational resources such as model policy and procedure manuals, criminal justice updates, new funding opportunities, and free user access and assistance for BJA web?based grant management programs.


A toll-free help desk that provides free technical assistance and professional support.

We tested the Institute's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grant.  Of the $6,291,453 expended as of September 15, 2003, we tested transactions totaling $2,192,586 (35 percent) and found that the grantee was generally in compliance with the grant conditions tested.  We also tested a sample of accountable property purchased with grant funds.  For those items tested, we found that the grantee did not maintain a complete and accurate inventory.
Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.